Audit Report-Executive Summary



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Olathe, Kansas Police Department
GR-50-01-001November 7, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Olathe, Kansas Police Department (Olathe PD).  The purpose of the grant is to enhance community policing.  The Olathe PD was awarded a total of $975,000 to hire 13 entry level sworn police officers. 1
We reviewed the Olathe PD's compliance with seven essential grant conditions.  We found that the grantee was generally in compliance with the budgeting and hiring of officers, providing matching funds, reimbursement requests, retention efforts, and community policing.  However, we noted weaknesses in status reporting.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




Footnotes


The Olathe PD was awarded $600,000 under the Phase I program and $375,000 under the Universal Hiring Program (UHP).  Except for our testing of budgeting and hiring of officers, we did not include the Phase I grant in our audit because it ended in December 1997 and our audit of the UHP grant did not reveal significant deficiencies.